Office of the Inspector General

Review of Smithsonian Institution
 Information Security Practices

  OIG Report Number M-05-03



         February 16, 2006
Smithsonian Institution OIG                                                                                                                         FY2005 FISMA Review




                                                                   TABLE OF CONTENTS
INTRODUCTION ............................................................................................................................................................1
      PURPOSE............................................................................................................................................................... 1
      BACKGROUND .................................................................................................................................................... 1
      OBJECTIVES, SCOPE, AND METHODOLOGY................................................................................................ 2

RESULTS ...........................................................................................................................................................................3
      SYSTEM INVENTORY DOES NOT IDENTIFY ALL OF THE INSTITUTION’S MISSION-CRITICAL
      SYSTEM INTERFACES......................................................................................................................................... 4
      CERTIFICATION AND ACCREDITATION PROCESS NEEDS IMPROVEMENT........................................ 5
      SPECIALIZED IT SECURITY TRAINING NOT PROVIDED TO ALL EMPLOYEES WITH SIGNIFICANT
      COMPUTER SECURITY RESPONSIBILITIES................................................................................................... 9
      IMPROVEMENTS NEEDED TO FACILITATE THE ANNUAL FISMA EVALUATION PROCESS ........... 10
MANAGEMENT COMMENTS ........................................................................................................................................ 11

OFFICE OF THE INSPECTOR GENERAL RESPONSE.................................................................................................. 12

APPENDIX.......................................................................................................................................................................... 14




                                                                                          i
Smithsonian Institution OIG                                                            FY2005 FISMA Review




INTRODUCTION

PURPOSE

The E-Government Act of 2002 (Pub. L. No. 107-347), which includes Title III, the Federal
Information Security Management Act of 2002 (FISMA), was enacted to strengthen the security
of federal government information systems. Although the E-Government Act of 2002 does not
apply to the Smithsonian, the Institution supports the information security practices required by
the Act because they are consistent with and advance the Smithsonian’s mission and strategic
goals.

FISMA outlines federal information security compliance criteria, including the requirement for
an annual independent assessment by the Institution’s Inspector General. This report presents
the results of the Smithsonian Institution Office of the Inspector General’s (OIG) annual
evaluation of the information security controls implemented by the Institution.

BACKGROUND

FISMA, Office of Management and Budget (OMB) regulations and National Institute of
Standards and Technology (NIST) guidance outline minimum security requirements for federal
information security programs. These include:

        •    Annual System Self-Assessments. NIST’s Security Self Assessment Guide for Information
                                1
             Technology Systems contains specific control objectives and techniques against which a
             system can be tested and measured. Performing a self-assessment and mitigating any of
             the weaknesses found in the assessment is an effective way to determine if the system or
             the information it contains is adequately secured and protected from loss, misuse,
             unauthorized access, or modification. OMB guidelines require organizations to use the
             NIST self-assessment tool annually to evaluate each of their major systems.

        •    Certification and Accreditation. NIST’s Guide for the Security Certification and
             Accreditation of Federal Information Systems2 states that systems should be certified and
             accredited. A certification is “a comprehensive assessment of management, operational,
             and technical security controls in an information system, made in support of security
             accreditation, to determine the extent to which the controls are implemented correctly,
             and operating as intended.” NIST guidance also discusses system accreditation, which is
             “the official management decision to authorize operation of an information system and
             to explicitly accept the risk to operations, assets, or individuals based on the
             implementation of the agreed-upon set of security controls.” Organizations should use
             the results of the certification to reassess their risks and update system security plans to
             provide the basis for making security accreditation decisions.




1
    NIST Special Publication 800-26, November 2001.
2
    NIST Special Publication 800-37, May 2004.


                                                      1
Smithsonian Institution OIG                                                            FY2005 FISMA Review




        •    System Security Plan. NIST’s Guide for Developing Security Plans for Information
                                 3
             Technology Systems requires that all major applications and general support systems be
             covered by a security plan. The plan provides an overview of the security requirements
             of a system and describes controls in place or planned for meeting those requirements.
             Additionally, the plan defines responsibilities and the expected behavior of all individuals
             accessing the system. The NIST guide also instructs that the security plan should
             describe the management, operational, and technical controls the organization has
             implemented to protect the system. Among other things, these controls include user
             identification and authentication procedures, contingency/disaster recovery planning,
             application software maintenance, data validation, and security awareness training.

OBJECTIVES, SCOPE, AND METHODOLOGY

Richard S. Carson & Associates, Inc., on behalf of the OIG, performed an independent evaluation
of the Institution’s information security program.

The purpose of the independent evaluation was to assist the OIG in meeting its FISMA obligation
for an independent assessment of the Institution’s information security program in accordance
with OMB Fiscal Year (FY) 2005 reporting guidelines. The objectives of the independent
evaluation were to:

       •    Determine the effectiveness of Institution information security policies, procedures, and
            practices.
       •    Review the network/system security of a representative subset of the Institution’s major
            application and general support systems.
       •    Assess the Institution’s compliance with FISMA and related OMB and NIST information
            security policies, procedures, standards, and guidelines.
       •    Assess the Institution’s progress in correcting weaknesses identified in the FY 2004 Plan of
            Action and Milestones (action plan).

In support of these objectives, the evaluation team conducted a qualitative review of the
Institution’s information security program, specifically evaluating the degree of compliance with
applicable OMB and NIST criteria for a security program and evaluating the effectiveness of
automated and manual security controls for the Institution’s general support and mission-
essential systems. The evaluation included a cursory review of all 14 systems and a more
comprehensive review of two systems:

       •    Smithsonian Institution Network Infrastructure, General Support System, and
       •    Smithsonian Institution Research Information System (SIRIS), Major Application.

The team’s evaluation was based on interviews with Office of the Chief Information Officer
(OCIO) staff, prior OIG reports of Institution systems, and a document review to assess
compliance with OMB and NIST guidance.

The evaluation was conducted at the Smithsonian’s OCIO Security Operations Division between
August 17, 2005 and September 30, 2005, and was supplemented with a review of additional
documentation provided by OCIO through January 2006.

3
    NIST Special Publication 800-18, December 1998.


                                                      2
Smithsonian Institution OIG                                                       FY2005 FISMA Review




RESULTS
OCIO has established a comprehensive framework for ensuring the security of federal
information systems within the Smithsonian Institution. In accordance with NIST standards,
OCIO has developed minimum-security controls for the Institution, which include:

     •   Maintaining an inventory of federal major information systems and applications and
         identifying the levels of security appropriate to protect such systems and applications;

     •   Establishing an Institution-wide information security program prescribing security
         practices and acceptable system configuration requirements;

     •   Performing system certifications and accreditations to ensure that security controls are in
         place and functioning as intended;

     •   Annually assessing the risk of unauthorized access and disruption of information systems
         that support the operations of the Institution;

     •   Documenting an action plan to track remediation of security vulnerabilities identified in
         annual self-assessments, vulnerability tests, and OIG reports;

     •   Periodically testing and evaluating the effectiveness of information security policies and
         practices;

     •   Reporting and responding to security incidents;

     •   Providing security awareness training to inform employees and contractors of their
         responsibilities in complying with Institution security policies; and

     •   Establishing plans for ensuring continuity of operations for systems that support key
         operations of the Institution.

While the framework established by OCIO addresses all of the critical components needed to
protect the Institution’s federal information system assets, our evaluation identified the following
areas where implementation of the Institution’s security program could be improved:

         •   Inventory of Major Systems. OCIO’s inventory captures major federal information
             technology (IT) investments that the Institution is required to report to OMB through
             the Exhibit 300 process. According to the Chief Information Officer (CIO), these
             systems account for about 94 percent of all federal IT expenditures. While OCIO’s
             approach generally satisfies FISMA reporting requirements, we noted the inventory
             does not identify all key interfaces between systems and networks, or links with third
             parties.




                                                  3
Smithsonian Institution OIG                                                                                            FY2005 FISMA Review




             •    Certification and Accreditation Process. Systems were certified and accredited
                  without meeting all minimum security controls required by NIST and OMB guidance,
                  and were not reaccredited when significant changes occurred in the information-
                  processing environment. Also, none of the security plans for the 14 systems were
                  updated to reflect the status of compliance with security configuration checklists, and
                  only 4 of 12 security plans completed prior to FY 2005 were updated to reflect the self-
                  assessment results or other changes. Of note, the security plan for the general support
                  system was not updated nor a reaccreditation performed when new controls and
                  services were implemented. Further, the Smithsonian Astrophysical Observatory
                  (SAO)4 system is hosted on Harvard University’s network without an interconnection
                  agreement that specifies the roles and responsibilities of the Institution and Harvard
                  regarding the respective security controls that must be maintained.

             •    Specialized IT Security Training. According to the CIO, only 49 of the 81 individuals
                  identified as having significant computer security responsibilities completed
                  specialized security awareness training in FY 2005. OCIO relied on employee self-
                  reporting at the end of the fiscal year and could not provide detailed information on
                  courses taken and dates completed to document compliance with this requirement.
                  To formally track specialized IT security training in FY 2006 the CIO will rely on the
                  recently implemented training module in the Human Resources Management System.

       Additionally, the following improvements are needed in OCIO’s reporting practices to better
       facilitate our annual evaluation of the Institution’s security program:

             •    Action Plan. OCIO’s practice of removing completed action items in the subsequent
                  reporting quarter makes it difficult for the OIG and OMB to evaluate the progress
                  made in addressing system vulnerabilities. Keeping mitigated items on the action
                  plan for a year would be more in line with reporting instructions issued by OMB.

             •    Annual System Self-Assessments. OCIO’s and system owners’ practice of
                  completing annual self-assessments at the end of the fiscal year does not allow the
                  Institution to adequately identify and mitigate security risks during the year through
                  the action plan process. These assessments also occur too late for OIG consideration
                  in its independent evaluation of the Institution’s compliance with FISMA.

SYSTEM INVENTORY DOES NOT IDENTIFY ALL OF THE INSTITUTION’S MISSION-CRITICAL
SYSTEM INTERFACES

FISMA requires organizations to develop and maintain an inventory of major IT systems under
their control or operated by a third party on their behalf, including all interfaces and links with
other systems.5 According to OMB, major systems include those that are important to the
mission or function of an entity; are used for financial management and obligate more than
$500,000 annually; have significant program or policy implications; or have high executive
visibility. The Smithsonian’s IT security program is directed at those major systems in its
inventory.


4
    SAO is a member of the Harvard-Smithsonian Center for Astrophysics and a research facility of the Smithsonian Institution.
5
    FISMA Section 305(c)(2)(c)(1) and (2).


                                                                         4
Smithsonian Institution OIG                                                      FY2005 FISMA Review




In FY 2005, the CIO identified an inventory of 14 major systems comprising a general support
system and 13 major applications, which he told us comprises about 94 percent of the
Institution’s federal IT expenditures. The inventory includes two applications added since the
end of FY 2004—the Development and Membership Information System and the Human
Resources Management System—and reflects only those systems that were reported to OMB on
an Exhibit 300. According to the CIO, in November 2001, OMB agreed with the Institution’s
approach for identifying major systems.

While the inventory generally complies with FISMA reporting requirements, it does not identify
all key interfaces between the major systems and links to external parties. For example, the
inventory does not include Donate Now, an Internet application that sends individuals who
donate funds to the Smithsonian to a third-party link for credit card authorization. Although
this application does not handle a significant amount of funds, because it transmits sensitive data
(personal identification and credit card information), it should be included in the Institution’s
inventory as a critical interface for purposes of security planning. The CIO indicated that
Donate Now underwent a security review before it was deployed, as required. Nevertheless,
Donate Now should have been identified as a critical interface in the Institution’s major system
inventory for FISMA reporting purposes.

Recommendation

1. We recommend the CIO identify and include all system interfaces, including those that
   transfer sensitive data, in its major system inventory to comply with FISMA reporting
   requirements.

CERTIFICATION AND ACCREDITATION PROCESS NEEDS IMPROVEMENT

NIST’s Guide for the Security Certification and Accreditation of Federal Information Systems6
outlines system certification and accreditation requirements. It states that organizations should
conduct a risk assessment to evaluate the extent to which security controls in the information
system are implemented correctly and operating as intended. Based on the results of the risk
assessment, management should update the system security plans as appropriate. This plan
provides the security requirements of information systems and describes the controls in place for
meeting those requirements. The organization should also prepare an action plan to correct
known vulnerabilities in security controls.

NIST guidance further states that management’s risk assessment, security plan, and action plan
comprise the accreditation package. During the accreditation phase, authorization to operate the
system is either granted or denied based on a determination of whether remaining system
vulnerabilities pose an acceptable level of risk to the organization’s operations. Finally, NIST
guidance requires continuous monitoring of security controls and reaccreditation of systems
when there is a significant change to the system and/or its operational environment.




6
    NIST Special Publication 800-37, May 2004.


                                                 5
Smithsonian Institution OIG                                                           FY2005 FISMA Review




Our evaluation identified the following areas where the Institution needs to strengthen its
certification and accreditation process:

        •    None of the security plans for the 14 major systems were updated to reflect the status of
             compliance with the Institution’s security configuration standards or major changes to
             systems and/or their operational environment.

        •    Six of the 14 major systems reviewed did not have finalized disaster recovery plans and
             1 system had no disaster recovery plan. The IT Security Specialist confirmed the status of
             these plans. Further, while the CIO conducted a tabletop test of the disaster recovery
             plan for the general support system, a full cutover and recovery test would provide
             greater assurance that the plan will work. Since the CIO will have to revise and retest the
             disaster recovery plan when the general support system is relocated to Herndon, Virginia,
             he should perform a full cutover test after the move.

        •    SAO’s system is hosted on the Harvard University network without an interconnection
             agreement between the Smithsonian and the university.

        •    The Institution did not reaccredit its general support system when new controls and
             services were implemented.

Security Plans for the 14 Major Systems Were Not Updated

None of the 14 major systems were updated to reflect the status of compliance with security
configuration checklists. NIST’s Guide for the Security Certification and Accreditation of Federal
Information Systems7 requires IT security plans to contain the most up-to-date information about
the security of information systems. Although the frequency of system security plan updates is at
the discretion of the system owner, major changes to an information system should be reflected
in the system security plan. The CIO acknowledged that system security plans were not updated
to reflect the status of configuration compliance. However, he indicated that as the accrediting
official, he is aware of the status of configuration compliance of the major IT systems through
alternate means. Nevertheless, NIST standards require that security plans be updated to provide
system owners and senior officials assurance that effective security controls are in place. Doing so
provides full accountability for any adverse impacts to organizations should a breach of security
occur. The security plans also guide any future security certification and accreditation activities.

In addition, we noted that the security plan for the Institution’s general support system had not
been updated since September 10, 2003, even though OCIO expanded migration of servers to
Active Directory, purchased and migrated SIRIS software to new servers, implemented new
system controls and services, and installed firewalls. As a general practice, OCIO should be
updating system security plans as necessary based on the results of the annual self-assessments,
other changes, and include compliance with security configuration standards. As discussed later
in this report, the Institution conducts self-assessments at the end of the fiscal year—too late in
the FISMA reporting cycle to determine whether deficiencies noted should have been addressed
in security plan updates.



7
    NIST Special Publication 800-37, May 2004.


                                                     6
Smithsonian Institution OIG                                                      FY2005 FISMA Review




In January 2006, after our review was completed, the CIO provided us three security plan updates
that were not made available to us during our evaluation—one for the Institution’s Network
Infrastructure, another for the Financial Enterprise Resource Planning System, and a third for the
Facility Management System.

Systems are Operating without Finalized Disaster Recovery Plans

A key element of a system security plan is a disaster recovery or contingency plan that describes
the organization’s arrangement for ensuring system continuity in the event of a service
                                                                                              8
disruption. Further, NIST’s Contingency Planning Guide for Information Technology Systems
provides that contingency plans should be tested to confirm the accuracy of individual recovery
procedures and the overall effectiveness of the plan.

We determined that seven major applications were authorized to operate without completed and
approved disaster recovery plans. At the time of our review, the plans for the National Museum
of Natural History collection information system, the National Museum of American Indian
collection information system and its registration information tracking system were stamped
draft. Plans for the collection information systems of the National Museum of American History,
National Air and Space Museum, and the Smithsonian Art Museums (ArtCIS) were undated.
In January 2006, the CIO provided us with additional documentation to show that there were
viable plans for six of the seven major applications and stated that the seventh plan for the
National Postal Museum’s collection information system was included in the ArtCIS disaster
recovery plan. However, none of these documents demonstrated that the disaster recovery plans
had been finalized (i.e. plans were undated, stamped draft, and/or lacked approval signatures).
In our view these plans should be presented as final documents and include appropriate
approvals for accountability purposes.

We also found that the CIO performed a tabletop test of the general support system’s disaster
recovery plan, instead of a full cutover and recovery test. While the tabletop testing method is
generally acceptable, it requires only a walk-through of the procedures without the execution of
actual recovery operations, and thus does not provide the same level of assurances that a
functional cutover exercise would provide. Therefore, the Institution only has limited assurance
that the major applications hosted thereon will maintain connectivity should a major disruption
occur. Because the Institution’s major applications rely on the general support system to operate,
the CIO may want to consider performing more substantive functional exercises, such as a system
cutover as part of the pending relocation of the Institution’s data center and general support
system to Herndon, Virginia.

SAO Operates on a Non-Smithsonian System without an Interconnection Agreement

OCIO accredited the SAO Scientific Computing System to operate on a non-Institution network
without an interconnection agreement with Harvard University specifying the roles and
responsibilities of the Smithsonian Institution and Harvard regarding security controls that the
university must maintain. OMB Circular A-130, Appendix III, requires organizations to obtain
written management authorization before connecting their IT systems to other systems, based on




8
    NIST Special Publication 800-34, June 2002.


                                                  7
Smithsonian Institution OIG                                                                                                FY2005 FISMA Review




an acceptable level of risk. The written authorization should define the rules of behavior and
controls that must be maintained for the system interconnection and be included in the
organization’s system security plan.

If the university network is compromised, the interconnection could be used as a conduit to
compromise the Institution’s data as SAO has access to the general support system and the
Financial and Human Resource Management Systems through an interconnection with
Harvard’s network. Without a documented interconnection agreement that details the rules of
behavior9 and the security controls that must be maintained by the interconnecting systems, the
Institution does not know whether there is an acceptable level of risk. Further, the Institution has
not complied with OMB requirements for completing an adequate system security plan.

Significant System Changes Occurred with No Reaccreditation

We found that OCIO did not reaccredit the Institution’s general support system after it
underwent significant changes. NIST’s Guide for the Security Certification and Accreditation of
Federal Information Systems10 stipulates that a system should be reaccredited periodically
whenever there is a significant change to the system or its operational environment. Examples of
significant changes that could trigger reaccreditation include the installation of a new or
upgraded operating system, middleware component, or application; modifications to system
ports, protocols, or services; and the installation of a new or upgraded hardware platform or
firmware component. Changes in laws, directives, policies, or regulations, while not always
directly related to the information system, can also potentially affect the security of the system
and trigger a reaccreditation action.

In response to the OIG’s security audit of the Institution’s general support system,11 OCIO
implemented new system controls and services, and installed firewalls. Additionally, OCIO
expanded the migration of servers to Active Directory and migrated SIRIS software to new
servers. While individually these changes may not merit a reaccreditation, in our view, taken
collectively a reaccreditation is warranted to determine if the security controls were negatively
affected by these changes. This has far-reaching implications because all applications hosted on
the general support system are vulnerable to any security weaknesses that may exist on the
general support system due to these changes. Because the Institution’s data center and general
support system are being relocated to Herndon, Virginia in FY 2006, a reccreditation of the
system should not occur until after the move.

Recommendations

We recommend that the CIO:

2. Require units to update system security plans based on changes to security configuration
   checklists, major system and operating environment changes, and the results of annual self-
   assessments.



9
  The rules of behavior should clearly delineate the responsibilities and expected behavior of all individuals with access to the system and state the
   consequences of noncompliance.
10
   NIST Special Publication 800-37, May 2004.
11
     Report Number A-04-05, Audit of the Smithsonian Institution Network Information System Controls, Office of the Inspector General,
     January 6, 2005.


                                                                          8
Smithsonian Institution OIG                                                                                           FY2005 FISMA Review




3. Develop a separate disaster recovery plan for the National Postal Museum’s collection
   information system and finalize the draft disaster recovery plans for the six major
   applications discussed in this report.

4. Work with Harvard University and SAO to establish an interconnection agreement between
   the Smithsonian and Harvard University for the SAO Scientific Computing System as
   required by NIST’s Security Guide for Interconnecting Information Technology Systems.12

5. Ensure that the general support system and affected major applications are reaccredited after
   the primary data center and general support system are relocated to Herndon, Virginia.
   Establish a process for ensuring that all major systems are reaccredited when significant
   changes occur in systems and/or their operating environment, in accordance with NIST
   guidance.

SPECIALIZED IT SECURITY TRAINING NOT PROVIDED TO ALL EMPLOYEES WITH SIGNIFICANT
COMPUTER SECURITY RESPONSIBILITIES

NIST guidance13 requires training for individuals whose roles in the organization indicate a need
for special knowledge of IT security threats, vulnerabilities, and safeguards. In FY 2005, the
Institution identified 81 individuals who had security-related duties with major information
systems. According to the CIO, these individuals were given access to online computer security
training and at the end of the fiscal year were required to self-identify training completed during
the year. Of the 81 individuals, only 49 reported they had taken advanced security-related
training. Tracking reports OCIO provided to us did not capture courses taken, hours of training
completed, or course dates—information that would be needed to provide assurances that the
training was sufficient to satisfy NIST requirements.

The CIO informed us that a training module was added to the Human Resource Management
System in September 2005 to track all training, including computer security training information,
for users with significant computer security responsibilities.

Recommendation

We recommend that the CIO:

6. Require that employees who have significant computer responsibilities report their plans for
   meeting the specialized training requirements at the beginning of the fiscal year, and monitor
   employee progress during the year to ensure that training is completed.

7. Ensure, either through OCIO’s current tracking process or the Human Resource
   Management System, that in FY 2006 individuals identify course titles, hours, and completion
   dates of specialized IT training to provide assurances that NIST training requirements are
   satisfied.




12
     NIST Special Publication 800-47, August 2000.
13
     NIST Special Publication 800-16, Information Technology Security Requirements: A Role-Based Performance Model, April 1998, and NIST Special
     Publication 800-50, Building an Information Technology Security Awareness and Training Program, October 2003.


                                                                        9
Smithsonian Institution OIG                                                      FY2005 FISMA Review




IMPROVEMENTS NEEDED TO FACILITATE THE ANNUAL FISMA EVALUATION PROCESS

Completed Action Plan Items Need to be Retained for a Minimum of One Year

OCIO maintains a consolidated list of system action items for the Institution, which it updates
quarterly, as required by OMB. OCIO uses this list to track identified vulnerabilities related to
major IT systems. OCIO removes “completed” action items in the reporting quarter subsequent
to when the action was taken, and relies on program managers to maintain documentation of
completed action plan items. Removing completed items quarterly makes OIG’s and OMB’s
assessments of progress more difficult by requiring a comparison of quarterly reports to identify
the total number of deficiencies remediated. OMB’s FY 2004 Reporting Instructions for the Federal
Information Security Management Act14 advises that deficiencies that have been completely
mitigated for over a year should no longer be reported in the Institution’s action plan. While the
guidance does not expressly require that items remain on the list for a year after deficiencies are
corrected, doing so will provide a better audit trail for tracking the progress of the Institution’s
remediation activities, expedite the OIG’s annual FISMA evaluation, and facilitate OMB’s
oversight of the Institution’s IT security program.

Self-Assessments

FISMA Section 3544(b)(5) requires each organization to assess annually the effectiveness of its
information security policies, procedures, and practices. This assessment should include tests of
its management, operational, and technical controls.

We found that the Institution performed these assessments as required by NIST. However,
because all but one of these assessments were completed at the end of the fiscal year, they were
not available for review during OIG’s FISMA evaluation or for inclusion in OCIO’s FISMA
report to OMB, which is due by the beginning of October each year. Consequently, deficiencies
discovered during the self-assessment process cannot be fully addressed in updates to the system
security plans, risk assessments, and action plans until after the FISMA reporting deadlines. The
CIO has agreed that the self-assessments need to be completed earlier and indicated that he will
encourage system owners to complete self-assessments by July 30 of each year. This change will
facilitate the OIG’s annual FISMA evaluation and provide for more timely updates of security
plans when significant changes occur.

Recommendations

We recommend the CIO:

8. Keep completed items in the action plan for one year after they have been fully mitigated.

9. Ensure self-assessments are completed and available no later than July 30 of each year.




14
     OMB Memorandum 04-25, August 23, 2004.


                                                 10
Smithsonian Institution OIG                                                          FY2005 FISMA Review




MANAGEMENT COMMENTS
We provided management a draft report on January 20, 2006, and received formal written
comments on February 7, 2006. Management’s comments are included in their entirety in the
Appendix to this report.

Management generally agreed with the report findings and conclusions related to its major
system inventory, tracking of specialized IT security awareness training, and improvements
needed in the timing of annual self-assessments. However, management disagreed with
deficiencies we noted in its certification and accreditation process and the need to retain for
1 year mitigated IT security weaknesses on its Plan of Action and Milestones Report.

Specifically, management does not agree that major IT systems were accredited without disaster
recovery plans or that the general support system (IT infrastructure) needed to be re-accredited
because new controls and services were added. The CIO believes there were no significant
changes to the hardware, software, or firmware during FY 2005 that warranted a recertification of
the general support system. Also, while OCIO acknowledges it needs to clean up its paperwork, it
contends that disaster recovery plans did exist for all of the seven major systems discussed in the
report. Management stated that the OIG’s concern that the plans were not dated or were
stamped “draft” is form over substance, and that the Postal Museum collection information
systems plan was combined with the ArtCIS plan. Furthermore, in reference to our
recommendation on reporting mitigated security weaknesses, management does not agree with
the IG’s position that these should be retained for 1 year on the FISMA Plan of Action and
Milestones Report.

Despite these disagreements, management concurred with recommendations 1, 2, 3, 4, 6, 7, and
9; partially concurred with recommendation 5; and non-concurred with recommendation 8. In
its response, management stated that implementing the report’s recommendations will
strengthen the Institution’s security accreditation process for major IT systems. Management’s
planned actions are summarized below:

Recommendation 1. The CIO agreed to include IT system interfaces in its major system
inventory by February 10, 2006. However, the CIO disagrees that Donate Now is a major IT
system for reporting purposes as it is not critical to the Institution’s operations, costs far less than
$500,000 to operate annually, and has brought in less than $40,000 in donations since
October 2004.

Recommendation 2. OCIO states there is not a requirement to update system security plans
unless there is a significant change. However, it will revise the Technical Standard and Guideline
IT-930-01, IT Security Planning, by April 30, 2006, to require annual updates to security plans to
document compliance with the Institution’s security configuration standards.

Recommendation 3. OCIO stated that it would create a separate disaster recovery plan for the
National Postal Museum’s collection information system by February 10, 2006, but did not
indicate whether it would finalize disaster recovery plans for six other major applications.

Recommendation 4. OCIO agreed to work with SAO and Harvard University to establish an
interconnection agreement by July 30, 2006. In subsequent discussions, the CIO told us he also
plans to establish an interconnection agreement with National Finance Center for payroll
services.


                                                   11
Smithsonian Institution OIG                                                                                             FY2005 FISMA Review




Recommendation 5. OCIO will re-accredit the IT infrastructure and affected major IT systems
once the relocation to Herndon, Virginia is complete.

Recommendation 6. OCIO stated it will work with OHR to ensure that Individual Development
Plans for employees with specialized IT security training needs include IT security training and to
monitor results.

Recommendation 7. OCIO will work with the Director of OHR to ensure IT security training
reports identify course titles, hours, and completion dates.

Recommendation 8. OCIO does not believe there is a reporting requirement to retain completed
items on the action plan for a year after they have been fully mitigated, and plans no action in
response to the recommendation.

Recommendation 9. OCIO will revise the self-assessment guidance to require completion of the
assessments by July 30 of each year.

OFFICE OF THE INSPECTOR GENERAL RESPONSE
In evaluating management comments to this report, we held several discussions with the CIO
and the IT Security Director in an effort to clarify the areas of disagreement. We continue to
believe that the CIO should have reaccredited the general support system. In addition to
installing firewalls and migrating servers to Active Directory, the CIO made several changes to
network security and to operating and application configurations in response to our
January 2005 audit of the Institution’s network controls,15 which should have triggered a
reaccreditation. Nevertheless, the OIG and OCIO agree that the move of the data center and
general support system to Herndon, Virginia, will require reaccreditations of many of the
Institution’s major IT systems.

We are encouraged that management recognizes the need to improve its documentation of
system disaster recovery plans. While the CIO downplayed the importance of finalizing these
plans, FISMA evaluation guidance requires that we review evidence of completion of these plans.
The fact remains that the plans presented to us during our review and again in January 2006 were
stamped draft, undated, and/or lacked approval signatures. After issuing our draft report, we
learned that OCIO had finalized the remaining six disaster recovery plans. We will revisit this
issue in our FY 2006 FISMA evaluation.

Management also did not agree to include Donate Now in its IT inventory for FISMA reporting
purposes. We note that FISMA requires the identification of interfaces with each major system in
the organization’s inventory, including those not operated by or under the control of the
organization. Although Donate Now is not a major system, it is an interface on numerous
Institution sites that directs the public to a third party that begins a credit card authorization
process. The sensitivity of the data captured combined with the link to a third party elevates the
importance of this interface. Our FY 2006 FISMA evaluation will look closely at the Institution’s
inventory to ensure that it identifies all interfaces.


15
     Report Number A-04-05, Audit of the Smithsonian Institution Network Information System Controls, Office of the Inspector General,
     January 6, 2005.


                                                                        12
Smithsonian Institution OIG                                                     FY2005 FISMA Review




Finally, management disagreed that fully mitigated items need to remain on the CIO’s Plan of
Action and Milestones Report for 1 year. Because this disagreement centers on an interpretation
of OMB guidance, we plan to seek clarification from OMB on its reporting instructions.

Management’s planned actions for recommendations 1 through 7, and 9, are responsive to the
intent of our recommendations and we consider them resolved. However, we will continue to
hold discussions with OCIO regarding the inclusion of Donate Now in its inventory for FISMA
reporting. In addition, until we obtain clarification from OMB on its FISMA reporting
instructions, recommendation 8 will remain unresolved.

We appreciate the courtesy and cooperation of Smithsonian representatives during this
evaluation. If you have any questions concerning this report, please call me at (202) 275-2154 or
Stuart Metzger at (202) 275-2159.




                                                13
Smithsonian Institution OIG        FY2005 FISMA Review




APPENDIX. MANAGEMENT COMMENTS




                              14
Smithsonian Institution OIG                 FY2005 FISMA Review




APPENDIX. MANAGEMENT COMMENTS (CONTINUED)




                              15
Smithsonian Institution OIG                 FY2005 FISMA Review




APPENDIX. MANAGEMENT COMMENTS (CONTINUED)




                              16
Smithsonian Institution OIG                 FY2005 FISMA Review




APPENDIX. MANAGEMENT COMMENTS (CONTINUED)




                              17
Smithsonian Institution OIG                 FY2005 FISMA Review




APPENDIX. MANAGEMENT COMMENTS (CONTINUED)




                              18
Smithsonian Institution OIG                 FY2005 FISMA Review




APPENDIX. MANAGEMENT COMMENTS (CONTINUED)




                              19
Smithsonian Institution OIG                 FY2005 FISMA Review




APPENDIX. MANAGEMENT COMMENTS (CONTINUED)




                              20
